Report No. D-2011-022       December 10, 2010




  Improving the Accuracy of Defense Finance
 and Accounting Service Columbus 741 and 743
          Accounts Payable Reports
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BVN                           Bureau Voucher Number
DFAS                          Defense Finance and Accounting Service
MILDEP                        Military Department
MOCAS                         Mechanization of Contract Administration Services
SFFAS                         Statement of Federal Financial Accounting Standards
                                   INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON , VIRGINI A 22202-4704 





                                                                              December 10, 20 I 0

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE, COLUMBUS

SUBJECT: Improving the Accuracy of Defense Finance and Accounting Service Co lumbu s 74 1
          and 743 Accounts Payable Reports (Report No. D-20 11 -022)

We are providing this report for your information and use. Defense Finance and Accounting
Service Co lumbus mi sstated $296 .9 million of accounts payable because it did not have adequate
procedures in place for creating accurate and complete accounts payable reports.

We considered management comments on a draft of thi s report in preparing the final report.
Comments on the draft of thi s report conformed to the requirements of DOD Directive 7650.3
and left no unreso lved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601­
5868 .




                                             pOv~VOv a/Y/ cvvlv
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Busi ness Operations
 Report No. D-2011-022 (Project No. D2009-D000FR-0236.000)                 December 10, 2010



                Results in Brief: Improving the Accuracy
                of Defense Finance and Accounting Service
                Columbus 741 and 743 Accounts Payable
                Reports
                                                             •	 generate an accounts payable balance
What We Did                                                     when a MOCAS receipt record was not
We determined whether the Defense Finance and                   created.
Accounting Service (DFAS) Columbus
methodology for capturing accounts payable                Until DFAS Columbus makes improvements to
balances for contracts administered in the                the accuracy of the accounts payable balances,
Mechanization of Contract Administration                  the Military Departments will not be able to fully
Services (MOCAS) system results in accurate and           rely on the 741 and 743 accounts payable
timely accounts payable information.                      balances. In addition, improving the accounts
Specifically, we determined that DFAS                     payable report weaknesses will assist the Military
Columbus needs to implement additional controls           Departments in their efforts to prepare audit-
to compile the 741 and 743 reports provided to            ready Statements of Budgetary Resources.
the Military Departments. The reports, as of
March 31, 2009, contained $3.6 billion and                What We Recommend
$2.2 billion, respectively, in accounts payable for       We recommend that the Director, Defense
the Military Departments. The 741 and 743                 Finance and Accounting Service Columbus,
reports include accounts payable balances related         review procedures for capturing all valid accounts
to invoices in the MOCAS system.                          payable on the 741 and 743 reports.
                                                          In addition, DFAS Columbus should establish
What We Found                                             procedures to reconcile the accounts payable
DFAS Columbus did not collect accurate and                reports to invoiced amounts, develop a process to
complete accounts payable balances to prepare             accurately value accounts payable associated with
the 741 and 743 reports. DFAS misstated                   contract financing payments, generate accounts
$296.9 million of accounts payable because it did         payable balances when a MOCAS receipt record
not have adequate procedures in place for                 is not created, and document procedures for
creating accounts payable reports in MOCAS and            compiling the accounts payable reports.
ensuring all valid accounts payable were included
on the report. DFAS Columbus personnel did                Management Comments and
not:                                                      Our Response
    •	 properly account for some of the contract          Comments from the Deputy Director, DFAS
        financing payments that it made,                  Columbus, were responsive, and we require no
    •	 input contract modifications into MOCAS            additional comments. DFAS stated it will
        in a timely manner,                               develop standard operating procedures, flow
    •	 properly estimate some of the service              charts, and narratives to identify controls for the
        invoices,                                         741 and 743 accounts payable reports and will
    •	 ensure that its methodology used correct           establish a quarterly reconciliation of accounts
        contract information to calculate accounts        payable reports. See the Recommendations Table
        payable, or                                       on page ii.


                                                      i
Recommendations Table

         Management                 Recommendations     No Additional Comments
                                   Requiring Comment              Required
Deputy Director, Defense Finance                       1, 2, 3, 4, 5
and Accounting Service,
Columbus
Table of Contents

Introduction                                                                1

      Objective                                                             1
      Background                                                            1
      Review of Internal Controls                                           2

Finding. Valuation and Completeness of Data in the 741 and 743
Accounts Payable Reports Needed Improvement                                 4

      741 and 743 Universe and Analysis                                      4
      DFAS Columbus Generally Included Only Valid Accounts Payable Balances 5
      DFAS Columbus Did Not Always Accurately Value the Accounts Payable
             Balances                                                        5
      DFAS Columbus Sometimes Excluded Valid Accounts Payable Balances       6
      DFAS Lacked Adequate Control Procedures for the Reported Accounts
             Payable Balances                                                6
      The 741 and 743 Accounts Payable Reports Could Be More Reliable       12
      Recommendations, Management Comments, and Our Response                13

Appendix. Scope and Methodology                                            16

      Prior Coverage                                                       17

Management Comments

      Defense Finance and Accounting Service Columbus                      18
Introduction
Objective
We determined whether the Defense Finance and Accounting Service (DFAS) Columbus
methodology for capturing accounts payable balances for contracts administered in the
Mechanization of Contract Administration Services (MOCAS) system results in accurate
and timely accounts payable information. Specifically, we reviewed the DFAS
methodology used to compile the monthly detailed accounts payable files provided to the
Military Departments (MILDEPs). See the appendix for a discussion on the scope and
methodology and prior coverage related to the objective.

Background
Financial Accounting and Auditing Standards
Statement of Federal Financial Accounting Standards (SFFAS) No.1, “Accounting for
Selected Assets and Liabilities,” March 30, 1993, states that accounts payable are
amounts owed by a federal entity for goods and services received from other entities.
The standard requires entities to recognize a liability for the unpaid amount of the goods
when an entity accepts title to the goods, whether the goods are delivered or in transit.
SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” September 1995,
states that general-purpose federal financial reports should recognize probable and
measurable future outflows or other sacrifices of resources arising from past exchange
transactions.

American Institute of Certified Public Accountants Standard AU 326, “Evidential
Matter,” August 1980, requires that management make five assertions related to the
financial statements. This audit focused on three of the management assertions
(existence, valuation, and completeness) as they relate to the accounts payable balances.

   •	 Existence: Management asserts that the liabilities it reports existed on a given
      date.
   •	 Valuation: Management asserts that it has included liability components in the
      financial statements at appropriate amounts.
   •	 Completeness: Management asserts that it has included all transactions that it
      should present in the financial statements.

DOD Accounts Payable Balance
DFAS Columbus administers and pays contracts using the MOCAS system. DFAS
Columbus uses the MOCAS information to generate five accounts payable reports. It
then combines the reports and makes the balances available to the applicable MILDEP
reporting entity. This audit focused on two of the five reports, Invoices Matched to
Acceptance and Unpaid Bureau Vouchers, called the 741 and 743 reports, respectively.
These reports totaled $5.8 billion as of March 31, 2009. The accounts payable balances
reported by DFAS do not always represent the amount it pays to contractors because


                                            1

DFAS calculates the accounts payable balance and the payment amount at different times
through different processes. As of March 31, 2009, DFAS required the MILDEPs to use
MOCAS accounts payable data collected in the following reports to accrue accounts
payable on the financial statements.

   •	 741 Report: Invoices Matched to Acceptance. The 741 report consists of
      accounts payable balances for invoices matched to an acceptance document.
      DFAS Columbus calculates the accounts payable balances on the 741 report by
      matching its processed acceptance file to the MOCAS invoice file. DFAS then
      compares those recorded amounts with the total available funding per funding line
      by contract. If MOCAS lacks sufficient funding for the invoice, DFAS limits the
      accounts payable balance to the available funding balance. Finally, to calculate
      accounts payable associated with contract financing payments, DFAS estimates
      the amount of contract financing payments it already has paid and reduces the
      total accounts payable balance by that amount. DFAS estimated a net $3.6 billion
      DOD accounts payable on the March 31, 2009, 741 report.

   •	 743 Report: Unpaid Bureau Vouchers. The 743 report contains accounts
      payable balances for unpaid bureau voucher number (BVN) invoices. BVN
      invoices represent interim payments for cost-reimbursement contracts. Based on
      the contract terms, DOD is required to pay the contractor up to the contract
      ceiling amount for the goods or services. The interim payment requests do not
      need Government acceptance. DFAS Columbus calculated the accounts payable
      balances for the 743 report on the basis of the contractor-submitted invoices and
      availability of funds. DFAS estimated a net $2.2 billion DOD accounts payable
      on the March 31, 2009, 743 report.

DOD reported an agency-wide accounts payable public balance of about $33 billion as of
March 31, 2009. The DFAS-prepared 741 (Invoices Matched to Acceptance Detail) and
743 (Unpaid Bureau Voucher Detail) reports comprised 17.6 percent ($5.8 billion) of the
$33 billion.

Statement of Budgetary Resources
In addition to the accounts payable balances reported on the Balance Sheet, entities also
include accounts payable balances on their Statement of Budgetary Resources. The
Under Secretary of Defense (Comptroller)/Chief Financial Officer has established as his
first priority to focus on process improvement, controls, and systems that produce
budgetary information. He has stated that this focus will be the starting point for meeting
the goal of obtaining auditable financial statements, beginning with the Statement of
Budgetary Resources.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4,
2006, requires DOD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and
to evaluate the effectiveness of the controls. We identified internal control weaknesses at


                                             2

DFAS Columbus. DFAS Columbus did not have effective procedures for monitoring and
reviewing the contents of the 741 and 743 reports. In addition, DFAS Columbus did not
have written procedures for compiling the 741 and 743 reports or adequate procedures to
input contract modifications into MOCAS in a timely manner. Implementing the
recommendations will improve the DFAS Columbus internal control procedures and
result in improved reporting of accounts payable. We will provide a copy of the report to
the senior official responsible for internal controls in DFAS Columbus for compliance
followup.




                                           3

Finding. Valuation and Completeness
of Data in the 741 and 743 Accounts
Payable Reports Needed Improvement
In general, DFAS Columbus included only valid accounts payable on the March 31,
2009, 741 and 743 reports. However, DFAS Columbus did not properly value
368 accounts payable included in $5.8 billion of accounts payable that it reported and
excluded 14 valid accounts payable from the reports. This occurred because DFAS
Columbus did not have control procedures to:

    •	 properly estimate contract financing payments that it made when calculating
       8 accounts payable,
    •	 input contract modifications into MOCAS in a timely manner for 37 accounts
       payable,
    •	 properly estimate the accounts payable for 286 service invoices,
    •	 ensure that its methodology used correct contract information to calculate

       accounts payable balances associated with 42 invoices, or

    •	 generate an accounts payable balance for 9 invoices that did not have a MOCAS
       receipt record.

As a result, DFAS Columbus misstated $296.9 1 million of the $5.8 billion in accounts
payable on the two reports. DFAS Columbus needs to implement additional controls to
improve the accuracy of the MILDEP accounts payable balances. If DFAS implements
the new controls, the MILDEPs should be able to rely on the reports. In addition, DFAS
improvements to the reports will assist the MILDEPs in their efforts to prepare audit-
ready Statements of Budgetary Resources, which rely in part on accurate accounts
payable information.

741 and 743 Report Universe and Analysis
DFAS Columbus reported DOD accounts payable balances totaling $5.8 billion for
43,048 unpaid MOCAS invoices on the 741 and 743 reports. We determined that DFAS
Columbus generally included only valid accounts payable on the two reports. However,
our summary analysis and judgment sample testing identified that the DFAS Columbus
methodology did not always ensure that the accounts payable balances were valued based
on current data or included all valid accounts payable balances. See the appendix for
additional details on the judgment sample.




1
 The valuation and completeness sample results presented on pages 5 through 6 total $296.8 million. The
difference of $.01 million is the result of rounding. The sample results shown in the table on page 7 total
$296.9 million in misstated accounts payable balances.


                                                     4

DFAS Columbus Generally Included Only Valid Accounts
Payable Balances
In general, DFAS Columbus included only valid accounts payable on the March 31,
2009, 741 and 743 accounts payable reports. Specifically, DFAS reported
43,048 accounts payable balances on the March 31, 2009, 741 and 743 reports. DFAS
paid 42,434 of the 43,048 accounts payable balances between April 1, 2009, and May 31,
2009. The payments made within two months after the March 31, 2009 reports indicate
that DFAS should have included an accounts payable in the March 31, 2009, reports. See
the Valuation section for an analysis of the valuation of these accounts payable balances.

As of May 31, 2009, DFAS had not paid 614 (just over 1 percent) of the 43,048 accounts
payable that it included on the March 31, 2009, 741 and 743 accounts payable reports.
These accounts payable totaled $0.064 billion of the total $5.8 billion balance. Because
of the extremely low number of accounts payable that DFAS had not paid as of May 31,
2009, we did not perform additional procedures to determine why DFAS had not paid
them.

DFAS Columbus Did Not Always Accurately Value the
Accounts Payable Balances
The DFAS Columbus methodology did not always accurately value the accounts payable
balances it reported on the 741 and 743 reports. Of the 43,048 accounts payable reported
on the 741 and 743 reports, DFAS included 8,042 accounts payable that differed from the
amount that DFAS paid. The absolute value difference between the accounts payable
balance and the payment amount totaled $716 million (12 percent of the reported
balances).

A difference in accounts payable balance and the payment amount does not necessary
mean that DFAS misstated its accounts payable balance as of March 31, 2009.
Therefore, we selected a judgment sample of 113 sample items from the two reports to
determine if DFAS accurately valued the 113 accounts payable balances. We selected
the sample based on either the greatest absolute dollar-value difference between the
payable balance and payment amount or where DFAS reported a negative accounts
payable balance (19 of the 113 sample items). A negative accounts payable balance
would normally indicate an error or an adjustment to correct an accounts payable balance.
The 113 sample items totaled $332 million of the $716 million in absolute difference.

We reviewed contract, invoice, acceptance, and MOCAS data for the 113 judgmentally
selected sample items to determine if DFAS Columbus knew or should have known the
payment amount as of March 27, 2009. We concluded that if DFAS should have been
aware of the accurate accounts payable as of March 27, 2009, then it should have
included the amount on either the 741 or 743 report. Of the 113 sample items, DFAS
misstated the value of 89 sample items by $214.3 million using data that were not the
most accurate as of March 27, 2009. In addition, based on our judgment sample results,
we identified an additional 279 accounts payable balances that DFAS Columbus did not
value correctly, with a total understatement of $30.3 million.


                                            5

DFAS Columbus Sometimes Excluded Valid Accounts
Payable Balances
The DFAS Columbus methodology for reporting accounts payable balances also
excluded valid accounts payable. MOCAS data included 11,678 invoices DFAS paid
between April 1, 2009, and May 31, 2009, which DFAS had received before March 27,
2009. However, DFAS did not report these invoices on the 741 or 743 accounts payable
reports as of March 31, 2009. The payment amounts of these invoices totaled
$1.63 billion. These invoices represented the potential amount of additional accounts
payable that DFAS should have included on the March 31, 2009, 741 and 743 reports.

DFAS Columbus should not necessarily have reported all invoices received before
March 27, 2009, and paid after April 1, 2009, on the 741 and 743 reports. For example,
if a contractor submitted an invoice for a partial payment, DFAS Columbus would not
have reported the account payable on the 741 report. Instead, DFAS would have
estimated the account payable balance using a different methodology that DFAS does not
incorporate into the 741 report. Therefore, we selected an additional 85 high-dollar
payments that DFAS made before May 31, 2009, totaling $447.1 million, to determine if
DFAS should have reported the amounts as accounts payable on the 741 or 743 reports as
of March 31, 2009.

We reviewed contract, invoice, acceptance, and MOCAS data for the 85 sample items, to
determine if DFAS Columbus knew or should have known that the invoice was a valid
account payable as of March 27, 2009. From these judgment sample items, the data
showed that DFAS Columbus should have reported 14 additional accounts payable on the
741 or 743 reports as of March 31, 2009. The 14 sample items had net payments of
$52.2 million that DFAS should have reported as accounts payable on the 741 or 743
reports as of March 31, 2009.

Based on these results, we asked DFAS Columbus to provide us its policy and procedures
for preparing the 741 and 743 reports and how it verifies the completeness of the reports.
DFAS Columbus representatives stated that they do not have written policy detailing the
accounts payable system process. Therefore, DFAS was unable to provide the requested
information.

DFAS Lacked Adequate Control Procedures for the
Reported Accounts Payable Balances
DFAS Columbus did not accurately value or include 103 of the 198 sample items
(113 valuation sample items and 85 completeness sample items) on the 741 and 743
reports because its controls need improvement in five main areas. Based on the systemic
problems identified through the sample, we identified that DFAS also inaccurately valued
an additional 279 accounts payable balances for service invoices. Therefore, DFAS
misstated 382 accounts payable balances (103 sample items and 279 additional service
invoices) on the March 31, 2009, 741 and 743 accounts payable reports. DFAS did not
accurately value or include all valid accounts payable balances because it did not have
adequate control procedures, such as creating or maintaining documentation for


                                            6

                                             calculating accounts payable on the 741 and
    DFAS did not accurately value or
                                             743 reports to ensure the adequacy of the
    include all valid accounts payable
                                             systems methodology or that the program
     balances because it did not have
                                             operated as intended. DFAS needs to
      adequate control procedures…
                                             develop a written standard operating
procedure, which includes preparation of the reports and methodologies for reporting and
accurately valuing all accounts payable. The DFAS methodology used to create the 741
and 743 reports included several system programs that extracted certain data from
MOCAS.

To improve the valuation and completeness of its accounts payable reports, the DFAS
controls need improvement in five main areas: contract financing payment estimation,
contract modifications input, service invoices program logic, timeliness and accuracy of
data used by DFAS to value accounts payables, and excluded invoices. These
weaknesses resulted in inaccurate data for 382 misstated accounts payable balances. See
the table for a breakout of the number of accounts payable balances and dollar valuation
of misstatements by the four main causes.

                  Cause and Number of Misstatements on 741 and 743

                      Accounts Payable Reports, March 31, 2009 

            Cause                    Accounts Payable          Dollar Amount Misstated
                                    Balances Misstated                 (Millions)
Valuation of contract                           8                          $41.5
financing payments
Timely input of contract                      37                            70.2
modifications
Valuation of service invoices               286*                            59.8
Timeliness and accuracy of                    42                            94.4
data used by DFAS to value
accounts payable
Excluded invoices                             9                             31.0
  Total                                     382                           $296.9
*Our judgment sample of 113 items included 7 service invoices that DFAS misstated. In
addition to our sample, we identified an additional 279 service invoices that DFAS
misstated on the 741 report.

DFAS Columbus Did Not Always Estimate Contract Financing
Payments Correctly
DFAS Columbus incorrectly valued 8 of the 198 sample items on the 741 report because
it did not accurately reduce the accounts payable balance for contract financing payments
it had already made. According to DFAS Columbus personnel, DFAS Columbus
estimates the amount of payments already made to a contractor and deducts that amount
from the total invoice amount to ensure that the accounts payable is not overstated.
DFAS Columbus stated, however, that it estimated this amount by multiplying the


                                            7

invoice amount by the financing-payment liquidation rate of the contract. DFAS
Columbus then compared that amount with the outstanding contract financing amount
and estimated the lesser of the liquidation amount or the outstanding contract financing
payments. DFAS Columbus was unable to provide written documentation for this
procedure.

DFAS Columbus incorrectly estimated the accounts payable balances for six of the eight
incorrectly valued sample items because it did not estimate the reduction for contract
financing payments in accordance with their stated procedures. As a result, DFAS
Columbus misstated the accounts payable balances by $17 million. For example, DFAS
Columbus reported a total accounts payable balance of $3,409,188 for one invoice. This
invoice was for a payment on a contract that had a liquidation rate of 72.7 percent and
outstanding contracting financing of over $14 million. Therefore, DFAS Columbus
should have reduced the accounts payable balance by $2,478,479.68 ($3,409,188
multiplied by 72.7 percent). However, DFAS Columbus did not estimate the reduction
for the contract financing payments for this invoice and subsequently reported the entire
invoice amount of $3,409,188 as the accounts payable balance. DFAS overstated the
accounts payable accrual balance by $2,478,479.68 but accurately paid the contractor
using the correct data. DFAS Columbus could not provide an explanation as to why it
did not correctly estimate the reduction for the contract financing payments on the six
sample items.

DFAS Columbus did not accurately estimate the reduction for the contract financing
payments for two additional sample items totaling $24.5 million. DFAS overstated the
two accounts payable balances because the estimation methodology for reducing
accounts payable balances for contract financing payments differed from the payment
process. Specifically, the accounts payable methodology will only calculate the
reduction for contract financing payments based on the specific funding line that the
contractor has billed. However, DFAS will reduce the payment on all contract funding
lines if there are not enough outstanding contract financing payments on the funding line
billed.

For example, the contractor billed on one funding line for an invoice, and DFAS
Columbus estimated the reduction to the accounts payable balance for only that funding
line. However, when DFAS Columbus paid the invoice, it also properly reduced the
payment by an additional $1,575,236.38 on another funding line to account for the total
liquidation rate. This resulted in an overstatement of $1,575,236.38 for that accounts
payable balance.

DFAS Columbus accurately valued some of the accounts payable balances for contract
financing payments on the 741 report. For example, DFAS reported an accounts payable
balance of $2,996,173.36 associated with a certain payment request. This contract had a
liquidation rate of 87.7 percent. The contractor submitted the invoice for $24,359,133
and DFAS accurately reduced the accounts payable balance by $21,362,959.64 to
account for the contract financing payments that DFAS had already paid the contractor
($24,359,133 multiplied by 87.7 percent).



                                            8

During the audit, DFAS Columbus researched the contract financing payment sample
items to determine why the accounts payable balances were inaccurate but could not fully
explain why the inaccuracies occurred. DFAS Columbus agreed to continue to analyze
accounts payable associated with contract financing payments in an attempt to resolve the
inaccuracies.

DFAS Columbus needs to document its accounts payable estimation methodology
associated with contract financing payments. In addition, DFAS Columbus should test
the program logic to determine why it did not estimate the reduction for contract
financing payments on the six sample items in accordance with its stated program logic.
DFAS Columbus should also monitor the payment process to ensure that accounts
payable estimations are not significantly overstated because DFAS followed an
estimation methodology that differed from the payment process.

DFAS Columbus Did Not Enter Contract Modifications Into
MOCAS in a Timely Manner
DFAS Columbus misstated the accounts payable balance for 37 of the 198 sample items
because it did not enter contract modifications timely into MOCAS. When DFAS does
not enter the contract modifications in a timely manner, it cannot record the correct
funding amounts in MOCAS or accurately value the MILDEPs accounts payable.
Additionally, DFAS lacked a process to identify, review, and reconcile accounts payable
amounts that differed from the contractor invoice amount.

For the 37 sample accounts payable with contract modifications that became effective as
of March 27, 2009, DFAS did not enter the contract modifications as of March 27, 2009.
For example, on March 19, 2009, a contractor submitted an invoice for $3,183,127 for a
line item. DFAS estimated the accounts payable for the invoice as $1,457,383 because
that was the amount of funding left on that contract line item in MOCAS. Contract
modification 3 (effective as of February 24, 2009) added additional funding to the line
item. However, DFAS did not input this modification into MOCAS until after it received
the invoice. If DFAS Columbus had entered the modification earlier, it could have
accurately estimated the accounts payable.

DFAS Columbus personnel stated that during the March 2009 time frame, a significant
backlog of contract and modification input existed. They stated that they were aware of
the backlog and were working on procedures to expedite the process for entering contract
modifications into MOCAS, including allocation of personnel to the contract input
function. By performing quarterly reconciliations of accounts payable balances that do
not match contractor-billed amounts, DFAS Columbus would be better able to correctly
estimate future accounts payable balances.

DFAS Columbus Did Not Adequately Estimate Service Invoice
Accounts Payable Balances
DFAS Columbus inaccurately valued accounts payable balances for service invoices on
the 741 report as of March 31, 2009. Service invoices are for contracts whose primary


                                           9

purpose is to perform a service to the government rather than furnish an end item or
supply. Services include such tasks as maintenance, advisory and assistance services, or
modifications of supplies, systems, or equipment.

For 7 of the 198 sample items, DFAS reported $0 of accounts payables on the 741 report
but paid contractors $29.5 million. In addition to the 7 sample items, DFAS reported
279 accounts payable balances for service invoices on the 741 report with a $0 accounts
payable balance. DFAS subsequently paid $30.3 million for those 279 accounts payable
balances within the next two months.

DFAS Columbus personnel stated that service invoices are similar to BVN 2 invoices in
that DFAS should accrue an accounts payable equal to the service invoice amount and
not the quantity-delivered amount contained in MOCAS. We agree with this
methodology. However, for the seven sample service invoices, DFAS estimated the
accounts payable based on contract data that indicated there was no quantity delivered,
and DFAS consequently estimated a $0 accounts payable balance. DFAS Columbus
could not provide written documentation for this process.

For example, on March 23, 2009, a contractor submitted a service invoice for
$10,875,404. On March 25, 2009, MOCAS records indicated that DFAS had approved
the accuracy of the invoiced amount. However, on the March 31, 2009, 741 report DFAS
reported a $0 accounts payable accruable balance for the invoice based on contract data
that indicated there was no quantity delivered. However, DFAS used the correct data to
accurately pay the contractor. DFAS did not have controls in place for identifying and
reconciling $0 accounts payable balances on the 741 report.

During the audit, DFAS Columbus stated it took action to significantly reduce the
number of service invoices with a reported $0 accounts payable balance. DFAS stated it
had initiated a system change that would partially correct the inaccurate accounts payable
calculation associated with service invoices. We requested that DFAS provide more
details about its actions in the draft report comments.

DFAS Columbus should implement controls to ensure that they estimate service invoices
based on the invoice amount, and not contracting data. In addition, DFAS Columbus
should develop written documentation for this process.

DFAS Columbus Used Out-Of-Date Information to Report
Accounts Payable
DFAS Columbus did not accurately report accounts payable balances on the 741 and 743
reports because the accounts payable methodology did not always use current or accurate
contract information to calculate the accounts payable balance. DFAS Columbus’s
methodology included using data extracted from various MOCAS reports to develop the


2
 DFAS Columbus calculates the accounts payable balances for BVN invoices based on the contractor
submitted invoices and availability of funds.


                                                 10

accounts payable balances. The reports used were not always the most timely or most
accurate at the time of the accrual. This resulted in DFAS inaccurately valuing 42 of the
198 sample accounts payable balances on the 741 and 743 reports. For all 42, DFAS had
more accurate data available in the system as of March 27, 2009. DFAS did not have
controls in place to identify and reconcile accounts payable balances on the 741 and 743
reports that differed from invoice amounts.

Specifically, for 20 of the 42 items, DFAS did not use all data submitted by the contractor
before March 27, 2009, to calculate accounts payable on the 741 and 743 reports.
Instead, DFAS reported accounts payable balances based on data that had subsequently
been updated and corrected in MOCAS before March 27, 2009. Generally, for these
invoices, the contractor billed the correct amount. A comparison of the accounts payable
estimate to the contractor-billed amount would have highlighted discrepancies that DFAS
could research.

In addition, DFAS mistakenly identified 3 of the 42 items as standard invoices when the
contractor had actually submitted the invoices as provisional billing. 3 DFAS also
incorrectly concluded in 4 sample items that the contractor overbilled the DOD. The
DFAS conclusion was not accurate because it did not calculate the four accounts payable
shown on the 741 report using the best available data. DFAS subsequently used the most
accurate data to pay the invoice.

On 6 of the 42 items, DFAS paid a different line of accounting than the contractor billed.
The DFAS methodology only includes lines of accounting noted by the contractor on the
invoices. Therefore, using this methodology, DFAS could not have accurately valued
these accounts payable balances. In addition, DFAS improperly included lines of
accounting associated with 3 of the 42 items that DFAS should have removed from the
741 report, had it followed its methodology for preparing the report. By including these
lines of accounting, DFAS overstated the accounts payable balance.

For 6 of the 42 items, DFAS misstated the accounts payable balance because it used
incorrect data to calculate the accounts payable. Specifically, for one invoice, DFAS
erroneously recorded contracting data in MOCAS, which resulted in DFAS calculating
the estimation incorrectly. For five invoices, DFAS misstated the accounts payable
balance because the contractor billed on incorrect accounting lines. For all five invoices,
instead of reporting a $0 accounts payable balance, DFAS reported a negative accounts
payable balance. A negative accounts payable balance would normally indicate an error
or an adjustment to correct an accounts payable balance that required research.




3
 The contracts associated with the three invoices included provisional billing rates. Until the contracting
officers finalize the contract terms, they had the ability to establish a provisional billing rate for the
contract. This allowed the contractor to submit an invoice and DFAS to pay the invoice up to, but not to
exceed, the dollar amount identified as the provisional rate in the contract before the contracting officer
finalized the contract terms.


                                                     11

During the audit, DFAS Columbus acknowledged that it did not always use the most
timely or accurate data to report accounts payable balances. DFAS management stated it
would review our results further and seek possible solutions. DFAS expressed concern
about the possible need for adding manual processes to verify system-generated amounts.

DFAS Columbus should perform analysis to ensure that it estimates the accounts payable
balances based on the most current and accurate data as of a certain date. DFAS should
also perform quarterly reconciliations of accounts payable balances that do not match
invoiced amounts. This information would help DFAS Columbus correctly estimate
future accounts payable balances.

DFAS Inappropriately Excluded Invoices From the Accounts
Payable Balance
DFAS Columbus incorrectly excluded 9 of the 198 accounts payable balances from the
743 report because MOCAS did not generate a record when DFAS received these
invoices. DFAS Columbus stated that a MOCAS record of invoice receipt was not
necessary for it to process and pay these invoices if DFAS personnel appropriately
adjusted MOCAS to allow for payment. However, DFAS excluded these invoices
because these invoices bypassed the process that generates a MOCAS record of receipt,
which is how DFAS Columbus estimates the accounts payable balance.

DFAS Columbus should develop a procedure to ensure that they still report invoices that
do not generate a MOCAS receipt record on the 743 accounts payable report.

The 741 and 743 Accounts Payable Reports Could Be
More Reliable
The DFAS Columbus methodology for the compilation of the 741 and 743 reports
sometimes resulted in unreliable accounts payable balances for the MILDEPs. DFAS
                                                                Columbus inaccurately
     DFAS Columbus inaccurately reported 382 accounts           reported 382 accounts
     payable balances, which resulted in a $296.9 million       payable balances, which
          misstatement on the 741 and 743 reports.              resulted in a
$296.9 million misstatement on the 741 and 743 reports. Specifically, DFAS misstated
103 sample items, which resulted in a $178.3 million misstatement on the 741 report and
an $88.3 million misstatement on the 743 report. DFAS Columbus also misstated
279 accounts payable balances for service invoices on the 741 report by $30.3 million.

DFAS Columbus misstated and excluded $178.3 million of account payable balances on
the 741 report as of March 31, 2009. Of the 129 judgment sample items on the 741
report, DFAS incorrectly valued or excluded 56 sample items. Of the 56 sample items,
54 had an absolute difference between the accounts payable balance and payment amount
of $171.7 million. DFAS also excluded two sample items that it should have included
with a net payment of $6.6 million, from the March 31, 2009, 741 report. In addition to
the 56 judgmentally selected sample items, DFAS misstated 279 accounts payable
balances for service invoices by $30.3 million on the 741 report.


                                          12

DFAS Columbus also misstated and excluded $88.3 million4 of accounts payable
balances on the 743 report as of March 31, 2009. Of the 69 judgment sample items,
DFAS incorrectly valued or excluded 47 items. Of the 47 sample items, 35 had an
absolute difference between the accounts payable balance and payment amount of
$42.6 million. DFAS also excluded 12 sample items that it should have included, with a
net payment of $45.6 million, from the March 31, 2009, 743 report.

Until DFAS implements procedures to ensure that all valid accounts payable balances are
included and valued correctly, certain accounts payable balances related to the 741 and
                                                 743 reports on the financial statements
    DFAS improvements to the reports will        will not be reliable. In addition, DFAS
     assist the MILDEPs in their efforts to      improvements to the reports will assist
       prepare audit-ready Statements of         the MILDEPs in their efforts to prepare
  Budgetary Resource, which rely in part on      audit-ready Statements of Budgetary
    accurate accounts payable information.       Resources, which rely in part on
                                                 accurate accounts payable information.
Specifically, accurate accounts payable reports will assist the MILDEPs in accurately
reporting unpaid obligations on Statements of Budgetary Resources for line items such as
Undelivered Orders.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, Defense Finance and Accounting Service Columbus,
take corrective actions to ensure that accounts payable balances on the 741 and 743
reports are complete and accurately reported. Specifically:

1. Review control procedures for preparing valid accounts payable balances and
accurately valuing those balances on the 741 and 743 reports.

Management Comments
The Deputy Director, Defense Finance and Accounting Service Columbus, stated that
DFAS will review existing processes used to prepare the monthly MOCAS system
accounts payable reports. In addition, DFAS will develop flow charts and narratives
identifying the process flow controls for the 741 and 743 accounts payable reports. The
flow charts and narratives will include source systems and database functions that DFAS
uses when it prepares the MOCAS accounts payable reports. The Deputy Director
anticipates completing and validating the reviews and creating flow charts and narratives
by June 1, 2011.

Our Response
Comments from the Deputy Director, Defense Finance and Accounting Service
Columbus, were responsive, and we require no additional comments.


4
    Mathematical differences are due to rounding.


                                                    13

2. Develop and document a standard operating procedure for the accounts payable
reporting process, which includes preparation of the 741 and 743 reports and
methodologies for reporting all accounts payable that exist and accurately valuing
reported accounts payable.

Management Comments
The Deputy Director, Defense Finance and Accounting Service Columbus, stated that
DFAS will develop standard operating procedures for MOCAS accounts payable
reporting processes. The standard operating procedures will include methodologies for
reporting accounts payable balances and procedures for monitoring the accuracy of
MOCAS accounts payable reports. The Deputy Director anticipates completing and
validating the standard operating procedures by June 1, 2011.

Our Response
Comments from the Deputy Director, Defense Finance and Accounting Service
Columbus, were responsive, and we require no additional comments.

3. Develop and document a process to accurately estimate 741 accounts payable
balances associated with contract financing payments.

Management Comments
The Deputy Director, Defense Finance and Accounting Service Columbus, stated that
DFAS will review the contract financing program logic to determine why they did not
correctly estimate the six sample items with contract financing. Specifically, DFAS will
review all variables and conditions that may prevent the contract financing logic from
reducing the accounts payable amount by the amount that DFAS already has paid the
contractor. The Deputy Director anticipates completing and validating the review of the
contract financing payment by September 1, 2011.

Our Response
Comments from the Deputy Director, Defense Finance and Accounting Service
Columbus, were responsive, and we require no additional comments.

4. Perform a quarterly reconciliation of the 741 and 743 reports to invoice billed
amounts to ensure the reports are complete and the accounts payable balances are
accurately reported.

Management Comments
The Deputy Director, Defense Finance and Accounting Service Columbus, stated that
DFAS will establish a quarterly reconciliation of the 741 and 743 accounts payable
reports. DFAS will perform a systemic analysis between the accounts payable amounts
reported versus the amount paid. DFAS will then research the high dollar variances,
zero/negative accounts payable balances, and inaccurate contract financing accounts
payable balances using a judgmental sample. In addition, DFAS will compare 741 and
743 accounts payable balances with actual MOCAS disbursements data by developing a


                                           14

Microsoft Access database. The Deputy Director anticipates completing and validating
the review by September 1, 2011.

Our Response
Comments from the Deputy Director, Defense Finance and Accounting Service
Columbus, were responsive, and we require no additional comments.

5. Develop and document a process to accurately capture and estimate the 743
invoices that do not generate a Mechanization of Contract Administration Services
receipt record.

Management Comments
The Deputy Director, Defense Finance and Accounting Service Columbus, stated that
DFAS Accounts Payable Acquisition issued a letter to the Supervisor of MOCAS
Entitlements directing that office to approve and monitor payment requests that lack a
MOCAS receipt record. DFAS will review 6 months’ worth of data and determine the
risk and materiality associated with processing payments without a MOCAS receipt
record. The Deputy Director anticipates completing and validating the review by July 1,
2011.

Our Response
Comments from the Deputy Director, Defense Finance and Accounting Service
Columbus, were responsive, and we require no additional comments.




                                          15

Appendix. Scope and Methodology
We conducted this performance audit from June 2009 through August 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.

We selected a judgment sample of 198 items to test for valuation and completeness on
the March 31, 2009 741 and 743 reports. We selected sample items with a high-dollar­
value difference between the reported accounts payable amount and the amount paid by
DFAS. We verified whether DFAS valued the sample items correctly or reported valid
accounts payable by reviewing invoices and payment data. We used available
documentation and discussions with DFAS personnel to determine whether DFAS-
reported accounts payable were valued correctly. In addition, we performed an analysis
of service invoices on the 741 report.

The 741 report consisted of 32,185 accounts payable totaling $3.6 billion. Of the
32,185 accounts payable, DFAS paid 31,816 between April 1, 2009, and May 31, 2009.
For 6,699 of the 31,816 accounts payable, DFAS calculated an accounts payable balance
different from the payment amount. From the 6,699 accounts payable, we selected
60 sample items with the highest dollar-value difference between the accounts payable
balance and payment amount. We also selected an additional 9 sample items with
negative accounts payable balances. In addition, to test for completeness of the 741
report, we identified that for 8,160 of the invoices, DFAS had received and Government
acceptance had occurred before March 27, 2009. From the 8,160 invoices, we
judgmentally selected 60 sample items with the highest payment amounts. Therefore, we
selected 129 total sample items to test the valuation and completeness of the 741 report.

The 743 report consisted of 10,863 accounts payable totaling $2.2 billion. Of the
10,863 accounts payable, DFAS paid 10,618 between April 1, 2009, and May 31, 2009.
For 1,343 of the 10,618 accounts payable, DFAS calculated an accounts payable balance
different from the payment amount. From the 1,343 accounts payable, we selected
34 judgment sample items with the highest dollar-value difference between the accounts
payable balance and payment amount. We also selected 10 sample items with negative
accounts payable balances. In addition, to test for completeness of the 743 report, we
identified 3,518 BVN invoices that DFAS had received before March 27, 2009, but did
not include on the 743 report. From the 3,518 BVN invoices, we selected 25 judgment
sample items with the highest payment amount. Therefore, we selected 69 total sample
items to test the valuation and completeness of the 743 report.

Use of Computer-Processed Data
We relied on computer-processed data in MOCAS. We assessed the reliability of the
payment data obtained from DFAS in a database by verifying that the payment data
matched MOCAS (fields such as YINV and YCU2). We also relied on computer­
                                           16 

processed data obtained from Wide Area Workflow and Electronic Document
Management. We verified that the lines of accounting, invoice amount, and payment
amount in Wide Area Workflow and Electronic Document Management matched
MOCAS. We did not find any discrepancies. Therefore, we determined that the data
were sufficiently reliable for the purposes of this report.

Prior Coverage
During the last 5 years, the DOD Inspector General (DOD IG) and Air Force Audit
Agency have issued four reports discussing MOCAS and accounts payable. Unrestricted
DOD IG reports can be accessed at http://www.dodig.mil/audit/reports. Air Force Audit
Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

DOD IG
DOD IG Report No. D-2008-117, “Accuracy of Mechanization of Contract
Administration Services Accounts Payable Information,” August 14, 2008

DOD IG Report No. D-2007-91, “Memorandum Report on Assessment of Defense
Accounts Payable Compliance with Generally Accepted Accounting Principles,” May 4,
2007

Air Force
F2008-0004-FB3000, “Defense Finance and Accounting Service Processing of Air Force
Working Capital Fund Accounts Payable,” June 9, 2008

F2007-FB3000-0105.000, “Closure Memorandum, General Fund Accounts Payable–
Mechanization of Contract Administration Services System Transactions,” November 21,
2007




                                         17 

Defense Finance and Accounting Service Columbus
Comments




                            DEFENSE FINANCE AND ACCOUNTING SERVICE
                                                  P.o. BOX 182317
                                              Columbus, OH 432 18-2317



                                                                                        OCT 1 ~ 1010

      DFAS-JBIICO


      MEMORANDUM FOR AUDIT PROGRAM DIRECTOR, DEFENSE BUSINESS OPERATIONS

      SUBJECT: Management Comments to the DoD Inspector General Draft Report, ';Improving the
               Accuracy of Defense Finance and Accounting Service Col umbus 74 1 and 743 Account s
                     Payable Reports,'- Project Number D2009-DOOOFR-0236.000, dated August 23, 2010



              In accordance wi th subject audit, management comments to the draft audit report are
      attached. The draft report identified five recommendations for DFAS Co lumbus .

          • •iFi·oiiriia.dditional infonnation , please contact • • • • • • DFAS-JB I/CO, a l
      •                    or




                                               oc?~:~!.:~
                                      Click to add JPEG file

                                                          Deputy Direc tor. OFAS Columbus

      Attachmelll:
      As stated




                                                     WWYI.dfas.mil
                                            Your Financial Partner @ Worit




                                                           18
  Management Comments to the 000 Inspector Genera l Draft Report, " Improving the
  Accuracy of Defense Fi na nce and Acco unting Serv ice Colum bus 74 1 and 743 Accounts
   Paya ble Report s," ProjcCl Number D2009-DOOOFR-0236.000, dated August 23, 2010


Recommendation I: Review control procedures for preparing valid accounts payable balances
and accurately valuing those balances on the 74\ and 743 reports.

C urrent Ma nagement Co mments: The Defense Finance and Accounting Service Columbus
Contract Pay Operations Division performs entitlement functions utilizing the Mechanization of
Co ntract Administration SelVices (MOCAS), an integrated, automated financial and contract
administration system. Typically, these contracts are administered by the Defense Contract
Management Agency and tend to be complex, multi-year purchases with high dollar value, such
as the purchase of major weapon systems. In Fiscal Year 2009, the Division processed
1,060.498 invoices and disbursed over $234 billion.

As stated in your report, OFAS Columbus misstated $296.9 million accoun ts payable balances as
of the March 31,2009, reporting date. Accounts Payable Acquisition shall review existing
processes used to prepare the month ly MOCAS system accounts payable accrual reports.
(UNFC74I - Acceptance Documents Match to Invoices and UNFC743 - Unpaid Burcau
Vouchers) Our office will develop flow charts and narratives to identify the process flow
controls for the UNFC741 and UNFC743 accounts payable reports. These flow charts will
identiry source systems and database runctions that are used to prepare MOCAS accounts
                            Click to add JPEG file
payable accrual reports. The documented process will provide increased reliability to provide
complete and accurate accounts payable infonnation to our Department of Derense customer's
financial statcments. Accounts Payable Acquisition will complete their summary analysis by
February 1,20 11. In order for Audit Support to validate the corrective actions, the estimated
comp let ion date is extended to June I, 20 II .

Es timated Completion Date: June I, 20 II


Recommendation 2: Develop and document a standard operating procedure for the accounts
payable reporting process, which includes preparation of the 74 1 and 743 reports and
methodo logies fo r reporting all accounts payable that exist and accurately valuing reported
accounts payable.

C urrent Management Comm ents: Accounts Payable Acquisition will develop standard
operating procedures for MOCAS accounts payable reporting process. These procedures will
include methodologies for reporting accounts payable balances and procedures for monitoring
the accuracy of MOCAS accounts payable reporting. Accounts Payable Acquisition will
complete the standard operating procedure by February 1,20 11. In order for Audit Support to
validate and revicw procedures, the estimated completion date is extended to June 1, 2011 .

Estima ted Co mpletion Date: Junc I, 2011


Recommendation 3: Develop a process to accuratcly estimate 741 accounts payable balance
associated \vith contract financing.




                                                19
C urrent Management Co mments: Accounts Payable Acquisition in conjunction with MOCAS
system personnel will review the contract financing program logic to determine why the six
sample items with contract financing was not estimated correctly. We will review all variables
and conditions thut may huve affected the contract financing logic from reducing the accounts
payable amount by the amount that OFAS already paid the contractor. Accounts Payable
Acquisition will complete the review of contract financing payments by June 1,20 II . In order
for Audit Support to validate and review results, the estimated comp letion date is extended to
September 1,2011.

Estimated C ompletion Date: September 1,2011


Reco mm enda tion 4: Perform a quarterly reconciliation of the 741 and 743 reports to invoice
bi lled amounts to ensure the repons are complete and the accounts payable balances are
accurately reported.

Cu rrenl Management Co mm ents: Accounts Payable Acquisition will establish a quarterly
reconciliation of the UNFC74 I and UNFC743 accounts payable repons to ensure the accuracy of
the accounts payable balances reported to our Depanment of Defense customers. A systemic
analys is will be conducted between thc accounts payable amounts reported versus the amount
paid to determine the variances. A judgmental sample will be used to research the high dollar
variances; zero/negative accounts payable balances; and inaccurate contract financing accounts
payable balances. In addition, a Microsoft Access database wi ll be developed to compare the
                             Click to add JPEG file
UNFC741 and UNFC743 accounts payable balances to actual MOCAS disbursements archived
in the Shared Data Warehouse . Accounts Payable Acquisition will summarize three-quarters of
Fiscal Year 2011 data, to establish a baseline and ensure a reconciliation process is in place. The
summary results will he completed by June 1. 2011, and reported to Senior Management. In
order for Audit Support to validate and review results, the estimated completion date is extended
to Septe,mher I, 20 II.

Estim ated Co mpletion Date: September 1.20 II


Reco mmendation S: Develop and document a process to accurately capture and estimate the
743 invoices that do not generate a Mechanization of Contract Administration Services receipt
record.

Current Management Comments: Accounts Payable Acquisition has issued a letter to the
Supervisor (MOCAS Entitlements) to approve and monitor all requests to make a payment
without processing a Material Acceptance Accounts Payable Report (MAAPR). The MAAPR is
used to generate an accounts payable balance on the accounts payable reports. Sometimes, a
payment must be made without a MAAPR to avoid large interest payments; to take discounts; to
make payments before month end; and comply with congressional inquiries to make an
immediate payment to a contractor. A review of six months of data will be conducted to
dctennine the risk and materiality associated with processing payments without a MAAPR. The
review will be completed by April 1, 2011 . In order for Audit Support to validate and review
resuits, the estimated completion date is extended to July I, 2011.

Estimated Complelion Date: July 1,20 11




                                              20
